A1
APPENDIX

OPINIONS, ORDERS, FINDINGS, CONCLUSIONS

Order (see page A3) by the Circuit Court of DeKalb
County, Alabama, in case Thomas C. Donald v.
James P. Kimberley and Carol J. Kimberley, case no.
28-CV-2017-900198, entered on June 21, 2018.

Order (see page A8) by the Circuit Court of DeKalb
County, Alabama, in case Thomas C. Donald v.
James P. Kimberley and Carol J. Kimberley, case no.
28-CV-2017-900198, entered on August 9, 2018.

Final Order (see page All) by the Circuit Court of
DeKalb County, Alabama, in case Thomas C. Donald
v. James P. Kimberley and Carol J. Kimberley, case
no. 28-CV-2017-900198, entered on September 30,
2019. The final order dismissed a counterclaim
which was unrelated to the judgment sought to be
reviewed. It also dismissed all pending motions
without opinion.

Affirmation without Opinion (see page A17) by
the Alabama Court of Civil Appeals, in case Thomas
C. Donald v. James P. Kimberley and Carol J.
Kimberley (Appeal from DeKalb Circuit Court CV17-900198), case no. 2190017, entered on September
17, 2020.

A2
Overrule of Rehearing Application without
Opinion (see page A18) by the Alabama Court of
Civil Appeals, in case Thomas C. Donald v. James P.
Kimberley and Carol J. Kimberley (Appeal from
DeKalb Circuit Court CV-17-900198), case no.
2190017, entered on January 8, 2021.

Denial of Petition for Writ of Certiorari
without Opinion (five of nine justices
concurring) (see page A20) by the Supreme Court
of Alabama, in case Ex parte Thomas C. Donald.
Petition for a Writ of Certiorari to the Court of Civil
Appeals (in re: Thomas C. Donald v. James P.
Kimberley and Carol J. Kimberley) (DeKalb Circuit
Court CV-17-900198; Civil Appeals: 2190017), case
no. 1200245, entered on July 9, 2021.

A3
APPENDIX
ORDER
IN THE CIRCUIT COURT OF
DEKALB COUNTY, ALABAMA
THOMAS C. DONALD
V.
JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 28-CV-2017-900198
FILED ON JUNE 21, 2018
Reformatted in compliance with court rules.

IN THE CIRCUIT COUIRT OF
DEKALB COUNTY, ALABAMA
DONALD THOMAS C. )
PLAINTIFF)
)

VS.

) Case No. CV-2017-900198
)

KIMBERLEY JAMES P. )
KIMBERLEY CAROL J. )
DEFEDNANTS)
ORDER
01} The complaint in this case seeks a
declaration as to the true boundary line between
plaintiff and defendants who are adjoining
landowners. The defendants file an answer and
counterclaim in response to plaintiffs complaint and

A4
assert in the counterclaim that plaintiff trespassed
upon their property and they seek money damages.
Plaintiff filed the complaint pro se and represents
himself in the prosecution of the complaint; however,
he is represented by counsel in defense of the
counterclaim.
m 02} The court severed the complaint and the
counterclaim, and the issues raised by the complaint
were the subject of a final hearing on June 11, 2018.
(If 03} Plaintiffs land is located in Section 23,
Township 5, Range 10 East in DeKalb County,
Alabama, and is more specifically described in a deed
recorded at Deed Book 773, Page 206, DeKalb
County, Alabama Probate Office. Defendant's land is
located in Section 26, Township 5, Range 10 East
DeKalb County, Alabama, and is more specifically
described in a deed recorded in Deed Book 717, Page
165, DeKalb County, Alabama Probate Office.
(t 04} Plaintiffs land is located north of the
Section line that divides Section 23 and 26, and
defendants' land is located south of that Section line.
The parties agree that the Section line is their
boundary but disagree as to the location of the
Section line. Plaintiff maintains that a firebreak or
wooded roadway which defendants have blocked is
located on his property north of the Section line, and
defendants maintain the firebreak or roadway is
located on their property south of the Section line.
(Tf 05} There was lay testimony presented at the
trial as well as the testimony of two licensed
professional land surveyors.

A5
H 06} Surveyor Johnny Croft, who has been
licensed since 1978, had surveyed the property of
defendants in 2009. His testimony was, in
substance, as follows:
{*! 07} In 1996, he established the
Northwest corner of Section 26 near the
intersection of DeKalb County Roads 642 and
631, and set a railroad spike in the middle of
the asphalted roadway. In performing the 2009
survey for defendants, he used this reference
point and the original government survey field
notes and ran a line east to a point where he
located an existing stone which he determined
to be the half-mile point of the Section line and
the Northwest corner of defendants' property,
and he put a metal pin there. He located the
other three corners of defendants' property, and
found that the deed description appropriately
closed back at the point of beginning which was
the existing stone which he had determined to
be the midpoint of the Section line and the
Northwest corner of defendants' property.
{*|| 08} Surveyor Croft further testified that in his
professional opinion, the stone that he located was
the Section line's half-mile point from the Section
corner he had marked with the railroad spike.
Surveyor Croft’s testimony supports defendants’
contention as to the location of the Section line.
{*[[ 09} The other surveyor, Dwayne Hawes,
performed a recent survey for plaintiff seeking to
determine the location of the Section line. He, too,
began at the point where Croft had placed the
railroad spike. From that point, he calculated a line

• \v

.* t ‘: • '

A6
running east to determine the midpoint of the
Section line. His calculation resulted in a placement
of the midpoint 56 feet south and a lesser distance
east of the existing stone that Croft determined to be
the midpoint. Hawes testified that he does not know
if his calculated line is the Section line. His line
appears to run through an existing shed and when
asked about the location of the firebreak or roadway
in relation to the location of his calculated line, he
testified that the roadway was north of his line, but
he could not state that the roadway was north of the
Section line.
H 10} When a court cannot determine with
absolute certainty the true boundary line, it should
consider all physical indications and monuments, if
any, as well as courses and distances. Keith v.
Milford, 270 Ala. 37 (Ala. 1960). And some courts
hold that where there is conflict between courses and
distances, and natural or artificial monuments,
monuments prevail. See Pench v. Buchart, 380 Pa.
Super. 205, 551 A.2d 303 (1988).
11} Neither party suggests that this court can
change a Section line, and it is not the court's
intention to attempt such. It is only the court's
function in this case to determine the location of the
Section line. Upon consideration of the evidence as a
whole, the court finds and it is adjudged that the
location of the Section line dividing Sections 26 and
23 is consistent with the findings of Surveyor Johnny
Croft, and that the Northwest corner of defendants'
property is that point which Croft determined to be
the midpoint of the Section line as indicated on his
survey plat dated October 22, 2009. Consistent with
this finding, it is adjudged that the firebreak or

A7
roadway here in dispute is located in Section 26 on
the property of the defendants.
{f 12} Other relief sought by plaintiffs complaint
is denied.
{f 13} The trial of defendants' counterclaim is set
for September 27, 2018, at 9 a.m.
{f 14} DATED this the 21st day of June, 2018.
s/ Randall L. Cole
RANDALL L. COLE
CIRCUIT JUDGE

,-v.

A8
APPENDIX
ORDER
IN THE CIRCUIT COURT OF
DEKALB COUNTY, ALABAMA
THOMAS C. DONALD
V.
JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 28-CV-2017-900198
FILED ON AUGUST 9, 2018
Reformatted in compliance with court rules.

IN THE CIRCUIT COUIRT OF
DEKALB COUNTY, ALABAMA
THOMAS C. DONALD )
PLAINTIFF)
)

VS.

) Case No. CV-2017-900198
)

JAMES P. KIMBERLEY )
DEFENDNANT)
ORDER
H 01} This matter is before the court on
plaintiff s motion to reconsider the court’s order
entered June 21, 2018, and find that the location of
the Section line here in question is located as
depicted on the survey of Surveyor Dwight Hawes.

•r;..

A9
The motion was the subject of a hearing on July 31
2018.
{! 02} The court denies the motion, but amends
the order of June 21, 2018, as set out herein.
{1 03} Plaintiff correctly points out that the court
was in error by stating in its order that Surveyor
Johnny Croft located an existing stone that he
determined to be the half-mile point of the Section
line by using government field notes and running a
line east from a point of reference earlier established
as the Northwest corner of the section; and the court
strikes this finding from the order.
(f 04} The court, however, reaffirms its
statement in the order of June 21, 2018, that
Surveyor Croft upon locating the existing stone
determined it to be the half-mile point of the Section
line and the northwest corner of the defendants'
property.
(t 05} Surveyor Croft's opinion that the existing
stone was the half-mile point of the Section line is
supported by the government field notes which
mention a half-mile corner or post. It is also
supported by the fact that Surveyor Croft found that
the defendants' deed description appropriately closed
back to the stone as the description's point of
beginning.
{*[[ 06} An adjoining landowner, Leon Crane,
testified that the corner identified by Croft's survey
had been recognized for over forty years as the
Northwest corner of the property now owned by

A10
defendants. The Hawes line, however, runs through
an existing shed on Crane's property.
{! 07} As the court stated in its order of June 21,
2018, Surveyor Hawes testified that he did not know
whether his line was the Section line. His was a
calculated line on paper without reference to
anything on the ground. He testified, "That line on
my plat is on paper, but there is nothing on the
ground."
{f|I 08} The point of beginning for the Hawes line
was a railroad spike placed by Croft in 1996 at the
intersection of two paved roads which Croft re­
established as the Northwest section corner of
Section 26. In testifying about the re-establishment
of this corner, Croft stated that he could not retrace
the footsteps of the original surveyors, and that
because corners are destroyed by roads and other
things, surveyors today have to rely on the closest
available information to re-establish corners, and
that the re-establishment of this corner could be close
to the original corner or could be off by fifty feet.
H 09} Upon the court's re-examination of the
evidence as a whole, it is adjudged that plaintiffs
motion to reconsider is denied.
{*1[ 010} DATED this the 9th day of August, 2018.

s/ Randall L.Cole
RANDALL L. COLE
CIRCUIT JUDGE

All
APPENDIX
FINAL ORDER
IN THE CIRCUIT COURT OF
DEKALB COUNTY, ALABAMA
THOMAS C. DONALD
V.
JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 28-CV-2017-900198
FILED ON SEPTEMBER 30, 2019
Reformatted in compliance with court rules.

IN THE CIRCUIT COURT OF
DEKALB COUNTY, ALABAMA
DONALD THOMAS C. )
PLAINTIFF)
)

V.

) Case No. CV-2017-900198
)

KIMBERLEY JAMES P. )
KIMBERLEY CAROL J. )
DEFEDNANTS)
FINAL ORDER
{t 01} The above styled case came for a final non­
jury civil trial the 24th day of September 2019 on the
sole remaining issue, to wit: the Defendants'
Counter-Claim(s) against the Plaintiff. The Plaintiff,
Thomas C. Donald, was present with his attorney, J.

A12
Len Ryals, Esq.; and the Defendants, James and
Carol Kimberley, were present with their attorney,
Robert French, Esq.
{f 02} The Kimberleys allege that Mr. Donald has
trespassed on their land and brought litigation
against them as a false and malicious act. For the
purposes of defending this counter-claim Mr. Donald
hired J. Len Ryals; however, he began this litigation
as an unrepresented litigant. The Kimberleys seek
"$10,000 in compensatory damages; $25,000 in
punitive damages; attorney fees of $7,500, and court
costs with appropriate interest. "i
03} The main allegations in this cause of
action are governed by the Alabama Litigation
Accountability Act. Code of Alabama (1975) § 1219-272 states the following:
Court to award fees and costs against
attorney or party who brought action
without substantial justification;
voluntary dismissal.
(a) Except as otherwise provided in this
article, in any civil action commenced or
appealed in any court of record in this state,
the court shall award, as part of its judgment
and in addition to any other costs otherwise
assessed, reasonable attorneys' fees and cost
against any attorney or party, or both, who
has brought a civil action, or assessed a claim
therein, or interposed a defense, that a court

1 See Counterclaim at Alacourt document 92.

A13
determines to be without substantial
justification, either in whole or part;
(b) When a court determines reasonable
attorneys' fees or costs should be assessed it
shall assess the payment thereof against the
offending attorneys or parties, or both, and
its discretion may allocate among them, as it
determines most just, and may assess the full
amount or any portion thereof to any
offending attorney or party.
(c) The court shall assess attorneys' fees and
costs against any party or attorney if the
court, upon the motion of any party or on its
own motion, finds that an attorney or party
brought an action or any part thereof, or
asserted any claim or defense therein, that is
without substantial justification, or that the
action or any part thereof, or any claim or
defense therein, was interposed for delay or
harassment, or if it finds that an attorney or
party unnecessarily expanded the
proceedings by other improper conduct
including but not limited to abuses of
discovery procedures available under the
Alabama Rules of Civil Procedure;
(d) No attorneys' fees or costs shall be
assessed if a voluntary dismissal is filed as to
any action, claim or defense within 90 days
after filing, or during any reasonable
extension granted by the court, for good
cause shown, on motion filed prior to the
expiration of said 90 day period.

A14
(e) No party, except an attorney licensed to
practice law in this state, who is appearing
without an attorney shall be assessed
attorneys' fees unless the court finds that the
party clearly knew or reasonably should have
known that his action, claim or defense or any
part thereof was without substantial
justificationA
{f 04} Mr. Donald was an unrepresented litigant
throughout most of this case, and he is not a licensed
attorney in this or any other state. However, due to
Mr. Donald's experience in the legal system
prosecuting and defending cases involving similar
scenarios, to wit: boundary line disputes and
easement disputed, he is not considered by this court
to be a complete novice.3 Regardless of that opinion,
this court is "required by the ALAA to make a finding
that he clearly knew or reasonable should have
known that the action he filed was without
substantial justification.4
{f 05} Mr. Donald's Complaint (filed August 17,
2017) and Amended Complaint (January 30, 2018)
appear to seek the declaration of boundary line(s)
pursuant to Code of Alabama (1975) § 35-3-1 et.
seq., and damages for the Kimberley's erecting a
"barricade on the road." Code of Alabama (1975) §
35-3-2 states the following:

2 Emphasis added by the undersigned.
3 See Smalley v. Donald, et. al. 28-CV2008-244; Donald v. Blair,
28-CV-2007-188; Edwards v. Donald, 28-CV-2006-316.
4 Schweiger v. Town of Hurtsboro, 68 So.3d 181 (Ala.Civ.App
2011). See also Wooten v. Morton, et. al., 138 So.3d 990
(Ala.Civ.App. 2012).

A15
Right to maintain action; duty of the
court to determine claims and make
order.
Actions may be brought by any person
owning land or any interest therein against
the owner or person interested in adjoining
land to have the boundary lines established;
and when the boundary lines of two or more
tracts depend upon the same common point,
line, or landmark, and action may be brought
by the owner or any person interested in any
of such tracts, against the owners or persons
interested in the other tracts, to have all the
boundary lines established. The court shall
determine any adverse claims in respect to
any portion of the land involved which it may
be necessary to determine for a complete
settlement of the boundary lines and shall
make such order respecting costs and
disbursements as it shall deem just.
(If 06} Pursuant to the above cited code section,
Mr. Donald had a right to initiate the action to
establish the boundary line. To this court's
knowledge, no previous action by and between these
parties or their predecessors in title regarding the
location of the boundary line(s) in question has been
determined by a court of competent jurisdiction. If
there had been previous litigation between
predecessors in tile regarding the location of the
disputed boundary lines in this case that had been
decided by a court of competent jurisdiction, then Mr.
Donald or the Kimberleys would be deemed by this
court to have known or should have known that there
was no substantial justification for this action. Such

A16
is not the case and there seemed to be a dispute as to
the location of the boundary line.
{! 07} The Honorable Judge Randall L. Cole
decided the location of the true boundary line after a
full and fair trial on these issues. This Court
inherited what was left of this case following Judge
Cole's retirement.
08} Therefore, based upon the testimony
presented, the record, pleadings, exhibits admitted,
and applying the law to the facts it is hereby
ORDERED, ADJUDGED, AND DECREED AS
FOLLOWS:
H 09} 1. That the Counter-Claim(s) filed by
James P. Kimberley and Carol Kimberley against
Thomas C. Donald is DENIED.
{*! 010} 2. That all other relief requested by
either party not specifically addressed herein, or
in Judge Cole's previous orders as DENIED.
{f 11} 3. That the cost of this action is taxed to
the party that prepared the same.
12} Done this 30th day of September 2019.
s/ Shaunathan Bell
CIRCUIT JUDGE

A17
APPENDIX
AFFIRMATION OF TRIAL COURT JUDGMENT
IN THE ALABAMA COURT OF CIVIL APPEALS
THOMAS C. DONALD
V.
JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 2190017
FILED ON SEPTEMBER 11, 2020
Reformatted in compliance with court rules.

REL: September 11, 2020
STATE OF ALABAMA - JUDICIAL DEPARTMENT
THE COURT OF CIVIL APPEALS
SPECIAL TERM, 2020
2190017
Thomas C. Donald v. James P. Kimberley
and Carol J. Kimberley.
Appeal from DeKalb Circuit Court (CV-17-900198).
PER CURIUM.
AFFIRMED. NO OPINION.
See Rule 53(a)(1) and (a)(2)(F), Ala. R. App. P.;
Williams v. Clark. 263 Ala. 228, 228, 82 So. 2d 295,
295-296 (1955); Williams v. Laubenthal Land &
Timber Co.. 941 So. 2d 301, 303-304 (Ala. Civ. App.
2006); and Ezell v. Ezell, 440 So. 2d 560, 562 (Ala.
Civ. App. 1983).
All the judges concur.

A18
APPENDIX
APPLICATION FOR REHEARING OVERRULLED
IN THE ALABAMA COURT OF CIVIL APPEALS
THOMAS C. DONALD
V.
JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 2190017
FILED ON JANUARY 8, 2021
Reformatted in compliance with court rules.

The Court of Civil Appeals
[Seal of the State of Alabama]
REBECCA C. OATES
CLERK

MEG WILLIAMS FIEDLER
ASSISTANT CLERK

300 DEXTER AVENUE
MONTGOMERY, ALABAMA 36104-3741
TELEPHONE 304-229-0733
January 8, 2021
2190017
Thomas C. Donald v. James P. Kimberley and
Carol J. Kimberley (Appeal from DeKalb
Circuit Court CV-17-900198)

A19
You are hereby notified that the following
action was taken in the above cause by the
Court of Civil Appeals:
Application for Rehearing Overruled. No
opinion on rehearing.
Thompson, P.J., and Moore, Donaldson,
Edwards, and Hanson, JJ., concur.
s/ Rebecca C. Oates
Rebecca C. Oates
Clerk, Court of Civil Appeals

A20
APPENDIX
DENIAL OF WRIT OF CERTIORARI
IN THE SUPREME COURT OF ALABAMA
THOMAS C. DONALD
V.

JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 1200245
FILED ON JULY 9, 2021
Reformatted in compliance with court rules.

IN THE SUPREME COURT OF ALABAMA
[Seal of the State of Alabama]
July 9, 2021
1200245
Ex parte Thomas C. Donald. PETITION FOR WRIT
OF CERTIORARI TO THE COURT OF CIVIL
APPEALS (In re: Thomas C. Donald v. James P.
Kimberley and Carol J. Kimberley) (DeKalb Circuit
Court: CV-17-900198; Civil Appeals: 2190017).
CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in
the above referenced cause has been duly submitted
and considered by the Supreme Court of Alabama

A21
and the judgment indicated below was entered in
this cause on July 9, 2021:
Writ Denied. No Opinion. Mitchell, J. - Parker,
C.J., and Shaw, Bryan, and Mendheim, JJ., concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R.
App. P., IT IS HEREBY ORDERED that this Court’s
judgment is this cause is certified on this date. IT IS
FURTHER ORDERED that, unless otherwise
ordered by this Court or agreed by the parties, the
costs of this cause are hereby taxed as provided by
Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk ofthe Supreme Court
of Alabama, do hereby certify that the foregoing is a
full, true, and correct copy of the instrument(s)
herewith set out as same appear(s) of record in said
Court.
Witness my hand this 9th day of July, 2021.
si Julia Jordan Weller
Clerk, Supreme Court of Alabama

A22
APPENDIX
THE PUBLIC LAND SURVEY SYSTEM
UNITED STATES V. ESTATE OF ST. CLAIR
(EXTRACTED PAGES)

2016, 819 F.3d 1254, at page 1256
UNITED STATES COURT OF APPEALS,
TENTH CIRCUIT
Reformatted in compliance with court rules.

The Public Land Survey System
In 1785, Thomas Jefferson and John Adams led a
coalition in the Continental Congress to create a
system for the government to survey public domain
land. U.S. Dep’t of the Interior, Bureau of Land
Mgmt., A History of the Rectangular Survey System
11 (1991). The Land Ordinance of 1785 established
the rectangular survey system, which was promptly
used to survey public land in the original 13 colonies
and the Northwest Territory. See id. at 13—16.
Known as the Public Land Survey System, it is still
used today. See id.; 43 U.S.C. § 751; 2 George
Cameron Coggins & Robert L. Glicksman, Public
Natural Resources Law § 13:52 (2nd ed. 2012).
Under this system, the Bureau of Land Management
(“BLM”),
like its predecessors,
commissions
surveyors to divide federal land into “townships,”
which are 36-square—mile tracts of land. Coggins &
Glicksman, supra, at § 13:52; U.S. Dep’t of the

A23
Interior, Bureau of Land Mgmt., Manual of
Surveying Instruction 12 (2009) [hereinafter BLM
Surveying Manual]. Surveyors then divide each
township into 36 “sections”—one-square-mile (640
acres) tracts of land. BLM Surveying Manual at 12.
A township with sections appears as follows:

Township Lin e
6

S

•4

3

T

3

f

16

2

1

12
Q)

10
19

17
20

16

21

15
22

M

'23

13

24

fe
B)
c

o

DC

30

29-

20

2T

26

25

31

32

33

34

35

m

Fi^rs 12. AregJa? CQwnshqp.

BLM Surveying Manual at 12.

Surveyors set boundaries for townships and sections
by placing monuments on the ground and recording

A24
the location of these monuments in their field notes.
See 43 U.S.C. § 752. Monuments are placed to mark
a given section’s four corners and the half-way points
between two corners—called “quarter corners.” Id,.;
see also U.S. Dep’t of the Interior, Bureau of Land
Mgmt., Glossary of BLM Surveying and, Mapping
Terms 52 (1980) [hereinafter BLM Glossary]. From a
surveyor’s field notes, the BLM creates an official
“plat,” a map showing the boundaries of a township
and its sections. 43 U.S.C. § 751; see also BLM
Glossary at 49.
Based on an official plat, the government may issue
land patents, essentially deeds, to convey land in a
township or a section of a township to private
citizens. See 2 Joyce Palomar, Patton and Palomar
on Land Titles § 292 (3d ed.) (“A patent is a
government conveyance just the same as a deed is a
private conveyance.”). Land patents describe the land
conveyed either by reference to a fraction of the
official plat—an “aliquot” description—or by
reference to landmarks and adjoining properties—a
“metes and bounds” description. See BLM Surveying
Manual at 47; 1 Palomar, supra, § 126.
“[A] patent is the highest evidence of title, and is
conclusive as against the Government, and all
claiming under junior patents or titles, until it is set
aside or annulled by some judicial tribunal.” United
States v. Stone, 69 U.S. (2 Wall.) 525, 535, 17 L.Ed.
765 (1864).

A25
APPENDIX
BRIEF RE SECTION LINES
IN THE CIRCUIT COURT OF
DEKALB COUNTY, ALABAMA
THOMAS C. DONALD
V.
JAMES P. KIMBERLEY
CASE NO. 28-CV-2017-900198
FILED ON SEPTEMBER 25, 2017
Reformatted in compliance with court rules.

IN THE CIRCUIT COURT FOR
DEKALB COUNTY, ALABAMA
Thomas C. Donald, Plaintiff
Case Number CV-2017-900198
v.
James P. Kimberley, Defendant

Brief re Section Lines
Comes now Thomas C. Donald, plaintiff in the abovestyled cause, and submits this brief regarding section
lines.
Issues:
a) Is the boundary line between two adjacent
United States Government Survey sections a
straight line running between their two pairs of
common corners? Alternatively stated: Is the

A26
boundary line of a United States Government
Survey section, which runs from a corner of a
section to an adjacent corner of the same
section, a straight line?
b) Can a section line determined by a United
States Government Survey be moved?
c) Can land described as being in a given
section include land actually lying in an
adjacent section?
Rule of Law:
a) Yes. Section lines of the United States
Government Survey run the shortest straightline distance between adjacent corners of the
section in question.
b) No. A United States Government Survey
section line cannot be moved either by
agreement of landowners or through adverse
possession or by any other means.
c) No. A conveyance of land described as being
on one side of a section line does not, on its face,
include contiguous land actually lying on the
other side of the section line.
Analysis of Issue “a”:
Under Title 43, United States Code, the Secretary of
the Interior was authorized to conduct surveys of the
country thereby creating a structure of Ranges,
Townships and Sections. Here we are concerned

A27
with the section, a roughly square unit of land (one
mile by one mile) comprising approximately 640
acres. Each section was laid out by the United
States Government Survey through the placement of
each of the four corners of the section, and with the
distance and bearing between corners being noted by
the surveyors at the time of the survey. See 43
U.S.C. § 751.
The next section of Title 43 provides basic principles
for the survey:
“The boundaries and contents of the several
sections, half-sections, and quarter-sections of the
public lands shall be ascertained in conformity
with the following principles:
“First. All the corners marked in the surveys ...
shall be established as the proper corners of
sections, or subdivisions of sections, which they
were intended to designate; and the corners of
half- and quarter-sections, not marked on the
surveys, shall be placed as nearly as possible
equidistant from two corners which stand on the
same line.
“Second. The boundary lines, actually run and
marked in the surveys ... shall be established as
the proper boundary lines of the sections, or
subdivisions, for which they were intended, and
the length of such lines as returned, shall be
held and considered as the true length
thereof. And the boundary lines which have not
been actually run and marked shall be
ascertained, by running straight lines from the

A28
established corners to the opposite
corresponding corners; ...”
43 U.S.C. §752 (emphasis added).
The United States Supreme Court, in addressing
the issue of sections lines, notes: "the ... line of the
sections is, so far as these lots are concerned, the
ordinary straight line of government surveys."
Horne u. Smith, 159 U.S. 40 (1895) (emphasis
added).
Although very few cases addressing the issue can be
found, those which do, concur with the straight line
standard. "It is true, as asserted by defendant, that
the surveying rules (43 U.S.C.A. § 751 et seq.)
require section lines to be run in straight parallel
lines." Addis u. Hoagland, 8 So.2d 655 (Fla. 1942)
(Florida Supreme Court commenting on adherence
to United States Survey) (emphasis added). The
Supreme Court of Maine held in a case regarding
surveying between two points in a United States
Survey township that where ”[T]he point of
departure is well ascertained, [and] The point to be
reached is equally well fixed. The line to be run
must be the shortest distance between these two
designated and established corners.” Grant v. Black,
53 Me. 373, 1865 WL 924 (1865). See also Britton v.
Ferry, 14 Mich. 53, 1866 WL 2834 (1866) (wherein
Justice Cooley provides an extended discussion of
the U.S. Survey and its origins).
Adherence by Alabama courts to the United States
Surveys was addressed in North Clarke Water
Authority v. Dockery, wherein the court held that:

A29
"In this state all disputes as to lines of sections and
subdivisions thereof are to be governed by the United
States Survey and located by reference to the original
government survey.” Mims v. Alabama Power Co.,
262 Ala. 121, 124, 77 So.2d 648, 651 (1955)." North
Clarke Water Authority v. Dockery, 5 So.3d 634, 637
(Ala.Civ.App. 2008). See also First Beat v. ECC, 962
So.2d 266 (Ala.Civ.App. 2007) and Coley v. Fain, 20
So.3d 824 (Ala.Civ.App. 2009).
Perhaps the reason for the sparse number of cases on
this first issue is because most surveyors and
attorneys understand this aspect of the law and
adhere to it.
Analysis of Issue “b”:
The second issue of whether or not a United States
Government Survey section line can be moved has
been addressed more thoroughly by the courts. It
has been conclusively established in Alabama case
law that a United States Government Survey
section line cannot be moved.
“Boundary lines between coterminous
landowners may be altered by an agreement or
by adverse possession; however, section lines
established by the United States government
may not be relocated. Mims v. Alabama Power
Co., 262 Ala. 121, 124, 77 So.2d 648, 651 (1955);
see also Sims v. Sims, 273 Ala. 103, 134 So.2d
757 (1961) (government-established section
lines may not be relocated by acts of the
parties); and Upton v. Read, 256 Ala. 593, 594,
56 So.2d 644, 645 (1952) (recognizing case law
as establishing the proposition that “no act of

A30
the parties can relocate the section lines as
established by government survey”).”
North Clark Water Authority v. Dockery, 5 So.3d 634,
637 (Ala.Civ.App. 2008).
Federal law {43 U.S.C. § 752) specifies that section
corners established during the original Government
Survey shall be adhered to in the future.
“43 U.S.C. § 752 provides that the corners of a
section and any other landmarks within the
section established by the original government
survey shall be adhered to in the future.”
First Beat v. ECC, 962 So.2d 266 (Ala.Civ.App. 2007).
Markings of lines (by surveyors or otherwise) which
are thought to represent a section boundary line, but
which, in fact, are not section boundary lines, do not
have any bearing on the true location of the section
boundary line.
“[R]ecognition by adjoining owners of a false
line as the boundary between them is without
effect, unless the party claiming beyond the
true line also holds hostile possession up to the
false line until the bar of the statute is
complete. Even a formal agreement between
them as to such a line could not, of itself, vest
title in one of them beyond the true line to
which each actually owns. Certainly it could
not have the effect of transferring one part of a
government survey 40 to the 40 just below it[.]”
Oliver v. Oliver, 65 So. 373, 375 (Ala. 1914).

A31

Federal law (43 U.S.C. § 752) specifies that points
along a section boundary line not monumented
during the original United States Government
Survey shall be placed on the straight line between
the corners, and markers not placed on the line are
subject to being corrected.
“The manner in which the original survey was
conducted was controlled by an Act of Congress.
Title 43 U.S.C.A. § 751 et seq. It is provided in
section 752 that ‘the corners of half and quarter
sections, not marked on the surveys, shall be
placed as nearly as possible equidistant from
two corners which stand on the same line.’
Dougherty v. Hood, Ala., 78 So.2d 324. The
corners of subdivisions were declared not to be
established by that survey as were the section
corners. And if they were incorrectly located by
that survey they were subject to be corrected by
pursuing the formula prescribed by section 752,
supra. Walters v. Commons, 2 Port. 38; Nolen v.
Palmer, 24 Ala. 391; Billingsley v. Bates, 30 Ala.
376-380.”
O’Rear v Conway, 263 Ala. 466, 467-8, 83 So.2d 65,
66 (Ala. 1955). (Note that “that survey” refers to a
survey performed in 1949.)
Once a section boundary line is established (by, for
example, the marking of its end points), no evidence
from subsequent surveys or otherwise can change it.
Faith may move mountains but not section boundary
lines.

A3 2
“All of this violates one of the fundamentals of
surveying. It neither touches nor purports to
touch one of the landmarks or monuments on
the Shooters Hill line, although some of them
are as plain today as they were in 1837.
Established, they fix this line, and so
established, it cannot possibly be changed by
the lines of other surveys. No amount of
evidence can change a right line from A to B
where A and B are ascertained monuments.
Here we have no question of adversary
possession and no principle of estoppel can be
invoked. Other surveys cannot change it nor
can the evidence of witnesses as to the conduct
of these landholders and of their predecessors in,
title. In such circumstances no collateral
evidence to support a change has probative
value. Faith may move mountains, but neither
oral evidence nor ancient surveys have yet
shifted a monument once established and still
standing.”
Moody v. Farinholt, 158 Va. 234, 241, 164 S.E. 258,
261 (Va. 1932).
Analysis of Issue “c”:
The third issue of whether land described as being in
a given section can include land actually lying in an
adjacent section was addressed by the Supreme
Court of Alabama in 1942 where it was clearly and
conclusively stated that no act or agreement may
take land out of one section and put it in another,
and a conveyance of land described to be in one
section cannot be taken to include land in another.

A3 3

“It is of course true that no act or even
agreement of the parties can take the land out
of section 11 and put it in section 14. And while
the boundary line between adjacent land
owners may be fixed and changed by agreement
or by adverse possession, they cannot relocate a
section line as surveyed by the Government
surveyors. So that if the land was in section 11
as thus surveyed, it has so remained and still is
thus situated. And the parties both treat it so.
It follows that a conveyance of land
described as in section 14 does not on its
face include land in section 11.”
Alford v. Rodgers, 6 So.2d 409, 410 (Ala. 1942).
(Emphasis added.)
The Supreme Court of Alabama ruled in 1945 that
there is no color of title for land claimed on the other
side of a section line, where one’s deed specifies that
the section line is the boundary.
As pointed out, the record is rather convincing
that the Pickett line is the true government line
dividing the two tracts and, being so, appellants
were without color of title beyond said boundary
and whatever desultory acts of possession
appellants might have exercised over a small part
of the disputed area could not override the claim of
appellee. In such circumstances the law regards
appellants' possession as "merely transitory for
the purpose of doing the acts which are trespasses
in the absence of a legal right. Such acts cannot
defeat the right of one in the actual or constructive
possession under claim of ownership." Bradley et

A3 4
al. v. Hall, 239 Ala. 544, 546, 547, 195 So. 883,
885; Green v. Marlin, supra.
Lucas v Scott, 24 So.2d 540, 541 (Ala. 1945).
The ruling in Lucas (supra) was cited in a Supreme
Court of Alabama decision in 1964.
In a boundary dispute where the deeds of the
parties show that the true government line is the
dividing line between the two tracts, then there is
no color of title beyond said boundary in the party
claiming adverse possession and the land across
said boundary is considered to be in the
constructive possession of the legal owner. Lucas
v. Scott. 247 Ala. 183. 24 So.2d 540.
Lay v. Phillips, 161 So.2d 477,478 (Ala. 1964).
s/ Thomas C. Donald
Thomas C. Donald, Plaintiff
P. O. Box 43507
Birmingham, AL 35243
205-720-0263, tcd@bellsouth.net

A3 5
APPENDIX
MOTION TO RECONSIDER
(EXTRACTED PAGES)
IN THE CIRCUIT COURT OF
DEKALB COUNTY, ALABAMA
THOMAS C. DONALD
V.
JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 28-CV-2017-900198
FILED ON JULY 7, 2018
Reformatted in compliance with court rules.

IN THE CIRCUIT COURT OF DEKALB
COUNTY, ALABAMA
Thomas C. Donald, Plaintiff
v.
Case Number CV-2017-900198
James P. Kimberley, Defendant
Carol J. Kimberley, Defendant
MOTION TO RECONSIDER
Plaintiff Thomas C. Donald (“Donald”) requests
that this Court reconsider its Order of June 21, 2018,
and further requests the Court order that the
location of the section line which determines the
boundary between Section 23 and Section 26 of
Township 5 South, Range 10 East in DeKalb County,
Alabama, is in the location set forth by surveyor
Dwight Hawes and that the firebreak or roadway

A36
made the subject of this action is on the property
owned by Plaintiff Donald.
The facts and testimony presented to the court do
not support the Court’s findings. The Court should
reconsider its Order and find in favor of Donald
because: a) The Court did not follow the procedures
required under Alabama law for resolution of issues
regarding section lines, b) The Court ignored
essential evidence provided by surveyor Dwight
Hawes while basing its findings on unsubstantiated
contentions and opinions of surveyor Johnny Croft,
c) The Court’s erred in basing its Order on surveyor
Croft’s testimony regarding the location of the halfmile point and failed to follow Alabama and Federal
law by basing its findings on Croft’s testimony about
the location of the half-mile point, d) The Court
ignored fundamental principles of Alabama law
regarding determination of section lines, appearing
to base its decision on Alabama caselaw regarding
boundary lines rather than section lines and
citations to Pennsylvania caselaw that does not
support the findings of the Court.
1. The Court ignored the fundamental
principle of Alabama law that determination of
Section Lines must follow the U.S. Government
Survey, bv issuing an order locating a Section
Line of a different length and bearing than
recorded in the U.S. Government Survey.
This Court’s adjudication of Crane’s rock as being
a monument on a section line is contrary to longestablished Alabama law, because Crane’s rock was
not referenced to the original government survey by
any evidence presented at the trial on June 11, 2018.

A3 7
“In this state all disputes as to lines of sections and
subdivisions thereof are to be governed by the United
States Survey and located by reference to the original
government survey.” Mims v. Alabama Power Co.,
77 So.2d 648, 651 (Ala. 1955).
43 U.S.C. § 752 provides that the corners of a
section and any other landmarks within the section
established by the original government survey shall
be adhered to in the future. See First Beat
Entertainment, LLC v. ECC, LLC., 962 So.2d 266,
270 (Ala.Civ.App. 2007). 43 U.S.C. § 752 states, in
relevant part:
“The boundaries and contents of the several
sections, half-sections, and quarter-sections of the
public lands shall be ascertained in conformity
with the following principles:
“First. All the corners marked in the surveys
returned by the Secretary of the Interior or such
agency as he may designate, shall be established
as the proper corners of sections, or subdivisions of
sections, which they were intended to designate;
and the corners of half- and quarter-sections not
marked on the surveys shall be placed as nearly as
possible equidistant from two corners which stand
on the same line.
“Second. The boundary lines, actually run and
marked in the surveys returned by the Secretary
of the Interior or such agency as he may designate,
shall be established as the proper boundary lines
of the sections, or subdivisions, for which they
were intended, and the length of such lines as
returned, shall be held and considered as the true

A38
length thereof. And the boundary lines which
have not been actually run and marked shall be
ascertained, by running straight lines from the
established corners to the opposite corresponding
corners; but in those portions of the fractional
townships where no such opposite corresponding
corners have been or can be fixed, the boundary
lines shall be ascertained by running from the
established corners due north and south or east
and west lines, as the case may be, to the
watercourse, Indian boundary line, or other
external boundary of such fractional township.
“Third. Each section or subdivision of section, the
contents whereof have been returned by the
Secretary of the Interior or such agency as he may
designate, shall be held and considered as
containing the exact quantity expressed in such
return; and the half sections and quarter sections,
the contents whereof shall not have been thus
returned, shall be held and considered as
containing the one-half or the one-fourth part,
respectively, of the returned contents of the
section of which they may make part.”
43 U.S.C. § 752
Leon Crane’s rock is not referenced in the U.S.
Government Survey. Accordingly, this Court should
not rely on Crane’s rock, and should, instead, rely
only on evidence referenced to the original
government survey.
2. The Court ignored essential evidence
provided by Surveyor Dwight Hawes.

A39
The line referred to as the Hawes Line during the
trial on June 11, 2018, can reasonably be concluded
to be at approximately the location of the Section
Line. The Hawes Line is referenced to the original
government survey in that its west end is the
undisputed northwest corner of Section 26 and its
east end is exactly the distances from the northwest
and southeast corners of Section 26 specified in the
field notes and on the plat of the original U.S.
Government survey of 1839-40. The Hawes line’s
bearing is almost exactly due east, as specified in the
field notes, and as required by Title 43 U.S. Code §
751. The definition of section lines in 43 U.S. Code §
752 is, “the boundary lines, actually run and
marked”. Surveyor Hawes could not testify that the
Hawes Line was the Section Line because he, and
this Court, know that the original location of the
Section Line, as “run and marked,” can never be
known with absolute certainty since the original
section corner markers at the end-points of the
Section Line no longer exist.
Because the Hawes Line references to and follows
the original government survey, the Hawes line
unarguably shows that Kimberley’s barricade and
markers are in Section 23. The Order’s conclusion
that Kimberley’s barricade and markers are in
Section 26 improperly ignores Hawes’ evidence.
Accordingly, this Court should take the information
shown by Hawes’ survey (Plaintiffs Exhibits 06, 07,
and 08) into consideration in its determinations in
this case.
3. The Section Line must be determined bv the
U.S. Government Survey, not bv Johnny Croft’s

A40
“opinion” of the supposed half-mile point
which was not part of the Government Survey.
Croft testified that the plat of the original U.S.
Government survey of 1839-40 does not show any
corners of half or quarter sections marked for Section
23 or 26. Accordingly, any contention that Crane’s
rock marks a half-mile point is of no consequence
because Alabama law states that, “It is provided in
U.S.C.A., Title 43, § 752, that ‘the corners of half and
quarter sections, not marked on the surveys, shall be
placed as nearly as possible equidistant from two
corners which stand on the same line.’” Dougherty v.
Hood, 78 So.2d 324, 327 (Ala.1954). Thus, according
to Alabama law, this Court’s Order should have
placed the “mid-point” 47 feet further east than it
did, not at the location of the rock which Crane says
that he found in his woods. This is an extremely
significant failing in the analysis done by this Court,
because essentially the Court’s entire argument in its
Order is based on Crane’s rock and Croft’s purported
and self-serving assessment of it.
However, according to Dougherty, supra, the
location of the rock is irrelevant because the location
of a half-section corner is not to be determined by an
ostensible monument of a corner not marked on the
survey, but, instead, bv calculating the proper
position of the half-section corner. Hawes’ calculated
mid-point of his one-mile-long Hawes Line agrees
exactly with the field notes from the U.S.
Government survey of 1839-40 for the Section Line,
and should be taken to be the position of the half­
section corner. Furthermore, there is no evidence
that Crane’s rock is in any way remarkable at all, or
is of any significance whatsoever, other than being

A41
simply a rationale for a proponent of the defendants
to falsely justify the defendants’ contentions.
Accordingly, this Court's Order should be brought
into compliance with Dougherty, supra.
4. The Court may not base its decision on
surveyor Johnny Croft’s unsubstantiated and
erroneous contentions as to the location of the
Section Line.
There is no record that Croft testified (as this
Court contends in its Order) at the trial of June 11,
2018, that, “In performing the 2009 survey for
defendants, he used [the northwest corner of Section
26] and the original government survey field notes
and ran a line east to a point where he located an
existing stone which he determined to be the halfmile point of the Section line and the Northwest
corner of defendants' property, and he put a metal
pin there.” If Croft actually did what the Court
contends that he testified that he did, then this
certainly casts doubt on Croft’s abilities and skills as
a surveyor, because it was shown incontrovertibly by
surveyor Dwight Hawes that Crane’s rock is 47 feet
less than a half-mile from the northwest corner of
Section 26 and on a bearing of 1.38 degrees north of
due east. Thus, the actual location of Crane’s rock is
significantly different from the location of the halfmile point noted in the original government field
notes: a half-mile due east of the northwest corner of
Section 26. This strongly suggests that Croft, in fact,
did not follow the original government field notes in
his 2009 survey.
Defendant’s Exhibit 3, the plat of the survey
performed by Croft for the defendants during 2009

A42
does not show that a line was run from the northwest
corner of Section 26 to the northwest corner of the
land claimed by the defendants (Crane’s rock). It
would have required substantial work and expense to
run such a line approximately a half-mile long, using
Croft’s optical surveying equipment, from the
northwest corner of Section 26 to Crane’s rock, and it
is inconceivable that documentation of this task, and
the distance and bearing measured, would have been
omitted from Croft’s plat, if Croft actually did what
the Court’s Order assumed that Croft did.
Accordingly, it appears that this Court’s presumption
that Croft ran such a line is incorrect, and that Croft
cannot possibly have an “opinion” about Crane’s rock
based on its location. Accordingly, Croft’s purported
“opinion” should be ignored by this Court, and it
should certainly not be used as the foundation for
this Court’s judgment.
Croft’s actual testimony about Crane’s rock at the
trial of June 11, 2018, shown in Exhibit “A” of this
motion, does not corroborate this Court’s assertions
about Croft’s testimony. Instead, Croft actually
testified, at Page 23 Line 3, regarding the basis of his
“understanding” about what Crane’s rock marked,
“He gave me a copy of his deed and he said go survey
this and I found this and it matches with his other
calls pretty close. I had no reason to doubt that this
was the half-mile point.” Thus, it is clear that Croft’s
“understanding” and “professional opinion” about
Crane’s rock was not based on references to the
original U.S. Government survey of 1839-40.
Accordingly, for these reasons, this Court should not
have based its Order on its unsubstantiated
contentions about Croft’s “professional opinion”.

A43
APPENDIX
MOTION TO RECONSIDER
ORDERS MOVING SECTION LINE
(EXTRACTED PAGES)
IN THE CIRCUIT COURT OF
DEKALB COUNTY, ALABAMA
THOMAS C. DONALD
V.
JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 28-CV-2017-900198
FILED ON JANUARY 27, 2019
Reformatted in compliance with court rules.

IN THE CIRCUIT COURT OF
DEKALB COUNTY, ALABAMA
Thomas C. Donald, Plaintiff
v.
Case Number CV-2017-900198
James P. Kimberley, Defendant
Carol J. Kimberley, Defendant
MOTION TO RECONSIDER ORDERS MOVING
SECTION LINE
Plaintiff Thomas C. Donald (“Donald”)
respectfully requests that this Court reconsider its
decision to move the boundary line (the “Section
Line”) between Section 23 and Section 26 in
Township 5 South of Range 10 East in DeKalb
County, Alabama.

A44

1. This Court’s decision was not final.
In this Court’s Order of June 21, 2018, which was
affirmed in its Order of August 9, 2018, this Court
concluded that the Section Line was located
differently from what was determined during the
original survey by the U.S. Government during 183940.
In its Order of July 23, 2018, this Court declined
to affirm that its Order of June 21, 2018, was not
final; therefore Donald filed a notice of appeal of the
June 21st Order on July 31, 2018. However, the
Alabama Court of Civil Appeals denied Donald’s
appeal on January 11, 2019, based on that court’s
conclusion that this Court’s orders regarding the
location of the Section Line, appealed by Donald,
were, in fact, not final. Attached as Exhibit “A” is
the opinion denying Donald’s appeal. Attached also
as Exhibit “B” are two letters from Donald to the
Reporter of Decisions regarding a misunderstanding
expressed in the opinion.
2. This Court’s decision is not supported bv
Alabama law.
“In this state, the lines of sections and
subdivisions thereof, are to be located by the original
government survey.” Taylor v. Fomby, 22 So. 910,
912 (Ala. 1897). Disputes regarding the location of a
section line shall be resolved only with reference to
the original U.S. Government survey. Mims v.
Alabama Power Company et al., 77 So.2d 648, 651
(Ala. 1955). This Court disregarded these mandates

A45
and located a section line with indifference to the
original Government survey.
This Court’s orders disregarded the original U.S.
Government survey of 1839-40 which shows that the
Section Line is 5,280 feet long and that it runs due
east. The section line ordained by this Court is only
5,186 feet long and runs 1.40 degrees north of due
east. This Court’s orders effectively move the
northeast corner of Section 26 to the west by 94 feet
and to the north by 112 feet, changing long
established lines in the four sections which share this
corner. Section lines established by the United
States government may not be moved. See North
Clark Water Authority v. Dockery, 5 So.3d 634, 636
(Ala.Civ.App.2008).
The section line ordained by this Court on June
21, 2018, is inconsistent with the Section Line
described in the government survey. According to
the field notes and the plat of the government
survey, in conjunction with the undisputed locations
of the northwest and southeast corners of Section 26
the correct location of the Section Line is along the
green Hawes Line shown by Surveyor Hawes’ plat
and by measurements illustrated in the attached
Exhibit “C” which were included in the evidence
presented at the trial of this case held on of June 11,
2018. The relocated section line ordained by this
Court is shown as the red Croft Line on Exhibit “C”.
This Court acted improperly because none of this
Court’s eight surviving findings, as stated in its
orders of June 21, 2018, and August 9, 2018,
reference the original U.S. Government survey,
which is required to justify a decision regarding the

A46
location of a section line. See Mims, supra. This
Court’s orders do not, and cannot, cite any law
otherwise justifying its decision regarding the
location of the disputed line.
This Court’s ruling is in error and should be
revised. The location of the Section Line claimed by
Donald in accordance with the records of the U.S.
Government Survey of 1839-40, shown by Surveyor
Dwight Hawes’ measurements and testimony
presented to this Court, and in compliance with
Alabama law, should be accepted.

A47
APPENDIX

APPELLANT’S BRIEF
(EXTRACTED PAGES)
IN THE ALABAMA COURT OF CIVIL APPEALS
THOMAS C. DONALD
V.
JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 2190017
FILED ON OCTOBER 8, 2019
Reformatted in compliance with court rules.

ARGUMENT
1. The trial court’s orders are not based on the
original U.S. Government survey.
The trial court, in its Order of June 21, 2018, falsely
found that Surveyor Croft “in performing the 2009
survey for defendants used [the northwest corner of
Section 26] and the original government survey field
notes and ran a line east to a point where he located
an existing stone which he determined to be the halfmile point of the Section Line and the northwest
corner of defendants’ property, and he put a metal
pin there.” (C.036-037)
In its subsequent Order of August 9, 2018, the trial
court admitted that it was “in error” in making the
above-stated finding, and it ordered this crucial
finding to be struck from its Order of June 21, 2018.

A48
(C.053) This left the trial court with no justification
at all for its ruling that the Section Line ran along
the Kimberleys’ new line of boundary markers, north
of Donald’s Road, because such a conclusion could no
longer be based on references to the original U.S.
Government survey of 1839-40, as Alabama law
required. See Mims v. Alabama Power Company et,
al, 77 So.2d 648, 651 (Ala. 1955).
Furthermore, the trial court’s only citations of law in
its Order of June 21, 2018, were shown to be
misapplied. See attached Exhibit “D” and Donald’s
Motion to Reconsider (C.038-048) filed on July 7,
2018. The trial court did not even address these
failings in its Order of August 9, 2018.
The trial court stated one surviving finding in its
Order of June 21, 2018, and it added seven more
findings in its Order of August 9, 2018. However, as
will be shown in the Findings section (5) below, none
of these eight secondary findings by the trial court
complies with Alabama law as a basis for the trial
court’s determination regarding the location of the
section line.
The next section (2) below shows that a finding must
relate to the original survey by the U.S. Government
or the finding cannot be a basis for determining the
location of a section line. The two sections (3 and 4)
thereafter show how the trial court’s decision is in
further conflict with Alabama law. It will then be
shown in section 5 how each of the eight additional
findings fails to relate to the original survey of 183940 by the U.S. Government. The final section (6)
below shows how this case is equivalent to a case
recently reversed by this appellate court.

A49

The original U.S. Government survey
governs the locations of all section lines in
Alabama.
2.

“The general rule is that all disputes as to the
boundaries of land are governed by the United States
surveys, unless there is some statute of the state to
the contrary; and the United States statutes make
the field notes and plats of the original surveyor, the
primary and controlling evidence of boundary. Tied.
Real Prop. § 832; 24 Am. & Eng. Enc. Law, 1002. In
this state, the lines of sections and subdivisions
thereof, are to be located by the original government
survey. Code 1886, § 84, subds. 13-15, and section
832.” Taylor v. Fomby, 22 So. 910, 912 (Ala. 1897).
See also Guyse v. Chappell, 367 So.2d 944, 946
(Ala. 1979) (stating that “[o]ur cases are clear that no
agreement or act ... can relocate the section lines, or
interior subdivision lines established by government
survey, for they are certain in legal contemplation”);
Mims v. Alabama, Power Co., 262 Ala. 121, 77 So.2d
648 (1955); McNeil v. Hadden, 261 Ala. 691, 76 So.2d
160 (1954); Upton v. Read, 256 Ala. 593, 56 So.2d 644
(1952); Wilson v. Cooper, 256 Ala. 184, 54 So.2d 286
(1951); Alford v. Rodgers, 242 Ala. 370, 6 So.2d 409
(1942); and Dial v. Bond, 849 So.2d 189
(Ala. Civ. App.2002).
According to the original U.S. Government survey of
Section 26 in 1839-40, and its undisputed corner
locations:
a. The northwest corner of Section 26 is at a point
marked by a railroad spike at the end of DeKalb
County Road 642, as shown on the Hawes Plat.
(R.031, R.066)

A50
b. The southeast corner of Section 26 is at a point
marked bv an ancient rock monument, as shown on
the Hawes Plat as a planted rock. (R.064-065)
c. The length of the northern boundary line of
Section 26 (the Section Line) is 5.280 feet (80 chains).
as shown in the field notes and on the plat of the U.S.
Government survey of 1839-40. (R.034, R.036, R.077)
d. The length of the eastern boundary line of Section
26 is 5,280 feet 180 chains), as shown in the field
notes and on the plat of the original U.S.
Government survey of 1839-40. (R.036, R.077)
e. A half-section corner is NOT shown on the Section
Line on the plat of the original U.S. Government
survey of 1839-40. (R.037)
f. The Section Line is shown to run due east in the
field notes of the original U.S. Government survey of
1839-40. (R.036)
In compliance with the requirements specified in
Mims v. Alabama Power Company et al, 77 So.2d
648, 651 (Ala. 1955), Hawes determined the location
of a northeast corner (the “Hawes Corner”) which is
5,280 feet east of the northwest (railroad spike)
corner of Section 26 and 5,280 feet north of the
southeast (ancient planted rock) corner of Section 26.
See Plaintiffs Trial Exhibit 06. (C.086) The Hawes
Corner is, in essence, a re-establishment of the
northeast corner of Section 26 in accordance with the
original U.S. Government survey. It turned out to be
only fifteen feet further north than the northwest
(railroad spike) corner of Section 26, a mile to the
west. This resulted in the Hawes Line having a
bearing of only approximately one-sixth (0.16) of one
degree north of the due east bearing described in the
field notes of the U.S. Government survey. That this
is only an immaterial deviation from due east further

A51
validates the undisputed locations of the monuments
at the northwest and southeast corners of Section 26.
See Fact-8.
The location of the Hawes Line comports with the
location of the Section Line described in the original
U.S. Government survey of 1839-40.
Internal corners were not established
3.
during the original survey, and cannot be used
bv the trial court in determining the location of
the Section Line.
A half-section corner is not shown on the Section
Line on the plat of the original U.S. Government
survey. (R.37)
“It is provided in U.S.C.A., Title 43, § 752, that ‘the
corners of half and quarter sections, not marked on
the surveys, shall be placed as nearly as possible
equidistant from two corners which stand on the
same line.’” Dougherty v. Hood, 78 So.2d 324, 327
(Ala. 1954). See also Nolen v. Palmer, 24 Ala. 391
(Ala. 1854); Clark on Surveying and Boundaries (2d
Ed.) section 348, note 32; Billingsley v. Bates, 30 Ala.
376 (Ala. 1857).
In compliance with U.S.C.A., Title 43, § 752, cited in
Dougherty, supra, the half-section corner shown on
the Hawes Plat as the mid-point of the Hawes Line is
exactly equidistant from the two ends of the Hawes
Line, a half-mile distance (2,640 feet) in agreement
with the field notes and plat of the original U.S.
Government survey of 1839-40. See attached Exhibit
“A”.

A52
With indifference to Alabama law, the trial court
determined the half-section point to be only 2,593
feet from the railroad spike (see Fact-9 and point-C
on attached Exhibit “A”) marking the northwest
corner of Section 26, significantly at variance from
the proper distance of 2,640 feet based on the
original U.S. Government survey and the rule in
Dougherty, supra. This error, alone, invalidates the
trial court’s ruling.
4. The trial court failed to relv upon the best
evidence, resulting in mislocation of the
Section Line.
“[U.S.C.A., Title 43, §§ 751-3] contemplate, that
where the survey has been made and returned, that
it shall be held to be mathematically true, as to the
lines run and marked, the corners established, and
the contents returned. ... Should they be obliterated
or lost, recourse must then be had to the best
evidence, which can be obtained, showing their
former situation or place.” Lewen v. Smith, 7 Port.
428, 433 (Ala. 1838). (Emphasis added.)
The best evidence which can be obtained which is
related to the original government survey is the
evidence presented at the trial of June 21, 2018.
This evidence is expressed in the Hawes Plat
(Plaintiffs Trial Exhibit 06 (C.086)) and in attached
Exhibit “A” which shows that the Section Line is
located south of the Road, and that'the Kimberleys’
barricade and line of new boundary markers are on
Donald’s land in Section 23.
At the trial, no
contradictory measurements were presented, and
there was no suggestion that any better evidence
locating the Section Line exists.

A53
The trial court erred egregiously in ignoring the best
evidence which was obtained and was available for
its consideration in determining the location of the
Section Line.
5. The findings bv the trial court are not
pertinent, because they are NOT based on the
original U.S. Government survey.
There were originally nine findings in the trial
court’s two orders. The trial court admitted that its
initial, crucial, finding in the Order of June 21, 2018,
was false, and it struck this determinative finding by
its Order of August 9, 2018. As shown below, none of
the remaining eight findings in the trial court’s two
orders relate to the original U.S. Government survey.
as is required in determining the location of a section
line. See Mims v. Alabama Power Company et al., 77
So.2d 648, 651 (Ala.1955).

A54
APPENDIX
PETITION FOR WRIT OF CERTIORARI
IN THE SUPREME COURT OF ALABAMA
THOMAS C. DONALD
V.

JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
CASE NO. 1200245
FILED ON JANUARY 25, 2021
Reformatted in compliance with court rules.

THOMAS C. DONALD
Plaintiff / Appellant / Petitioner
v.

JAMES P. KIMBERLEY AND
CAROL J. KIMBERLEY
Defendants / Appellees / Respondents
CIRCUIT COURT OF DEKALB COUNTY
CASE No. 28-CV-2017-900198
COURT OF CIVIL APPEALS CASE No. 2190017
SUPREME COURT CASE No.
APPELLANT’S PETITION FOR A WRIT OF
CERTIORARI
TO THE SUPREME COURT OF ALABAMA: Comes
your Petitioner, Thomas C. Donald, and petitions

A55
this Court for a writ of certiorari to be issued to the
Court of Civil Appeals in the above-styled cause
under Rule 39(a)(l)(D)(2) of the Alabama Rules of
Appellate Procedure, and shows the following:
1. JUDGMENT SUFFERED. Petitioner suffered a
judgment in the Circuit Court of DeKalb County,
Alabama, in Case No. 28-CV-2017-900198, on June
21, 2018, as amended on August 9, 2018. The
judgment changed the length and bearing of a
section line from the values reported in the original
survey by the U.S. Government.
2. JUDGMENT AFFIRMED. The Court of Civil
Appeals, in Case No. 2190017, affirmed the judgment
on September 11, 2020. A copy of the order by the
Court of Civil Appeals is attached to this petition.
The Court of Civil Appeals did not issue an opinion.
The citations in the order suggested that the
judgment was affirmed because lay testimony by a
neighbor about a rock marking a property corner was
not in the record on appeal.
3. REHEARING DENIED. A request to supplement
the record on appeal was filed on September 14,
2020, and was denied on September 21, 2020. An
application to the Court of Civil Appeals for
rehearing was filed on September 25, 2020. The
application was overruled on January 8, 2021. A
copy of the order by the Court of Civil Appeals is
attached to this petition. The Court of Civil Appeals
did not issue an opinion.
4. CONFLICTS WITH PRECEDENTS. The decision
by the Court of Civil Appeals affirmed the relocation
of a U.S. Government section line. The affirmation

A56
conflicts with prior decisions by the Supreme Court,
and conflicts with prior decisions by the Court of
Civil Appeals, and conflicts with the U.S.
Government Survey of 1839-40, and conflicts with
existing property boundaries which have been long
based upon the original government survey of 183940. These conflicts constitute grounds for issuance of
Rules 39(a)(l)(D)(2) and
a writ of certiorari.
39(d)(3)(B) of the Alabama Rules of Appellate
Procedure are applicable as a basis for this petition.
The conflicts are shown with particularity in section
6, below, following the statement of facts in section 5,
next.
5. STATEMENT OF FACTS. Petitioner hereby
verifies that the following statement of facts is a
verbatim copy of the statement of facts presented to
the Court of Civil Appeals in the application for
rehearing.
FACT 1. Donald’s land is in Section 23,
Township 5 South, Range 10 East, in DeKalb
County, Alabama, as described in Deed Book 773 at
Page 206 in the Probate Office of DeKalb County,
Alabama. (C.036)
FACT 2. The Kimberley s’ land is in Section
26, adjacent to and south of Donald’s land, as
described in Deed Book 717 at page 165 in the
Probate Office of DeKalb County, Alabama. (C.036)
FACT 3. The northeast corner of the Town of
Mentone, Alabama, is the northwest corner of
Section 26. See Plaintiffs Trial Exhibit 01. (C.081)
On this map, the Kimberleys’ land is marked with a
“K” and Donald’s land is marked with a “D”.
FACT 4. The Kimberleys only own land in
Section 26, and do not own land in Section 23, which
lies to the north, where Donald owns land. (C.008-

A57
010) The boundary between Donald’s land and the
Kimberleys’ land is the Section Line. (C.036)
FACT 5. The location of the northwest corner
of Section 26 was re-established during 1996 by
This
surveyor Johnny Croft. (R.25:L17-21)
undisputed location of the northwest corner of
Section 26 is monumented with a railroad spike set
in the asphalt topping of DeKalb County Road 642
near its western end where it intersects DeKalb
County Road 631. (R.26-27) See Plaintiffs Trial
Exhibit 02. (C.082)
FACT 6. The undisputed southeast corner of
Section 26 is monumented with an ancient planted
rock (also sometimes referred to as a rock pile) shown
in Plaintiffs Trial Exhibit 12. (C.092)
FACT 7. The north and east sides of Section
26 are each 5,280 feet (80 chains) long. See the plat
(Plaintiffs Trial Exhibit 03 (C.083)) and the field
notes (Plaintiffs Trial Exhibit 04 (C.084)) from the
original U.S. Government survey of 1839-40. (R.3436, R.76-78) A half-section corner is not shown on
the Section Line on the plat of the original U.S.
Government survey. (R.37) The Section Line runs
due east from the northwest corner of Section 26,
marked with Croft’s railroad spike, as shown in the
field notes of the original U.S. Government survey.
(R.36)
FACT 8. Surveyor Dwight Hawes measured
the location of the Kimberleys’ barricade and new
markers with respect to the “Hawes Line”, the green
line on Exhibit “B” attached to Appellant’s Brief filed
on December 12, 2019. The Hawes Line runs from
the undisputed northwest corner of Section 26 for
5,280 feet to a point 5,280 feet north of the
undisputed southeast corner of Section 26. (R.77-78)

A58
FACT 9. Hawes’ plat (the “Hawes Plat”) of his
measurements is shown in Plaintiffs Trial Exhibit
06 (C.086), and an enlargement of the central part of
the Hawes Plat is shown in Plaintiffs Trial Exhibit
07 (C.087), and an overlay of this enlargement on an
aerial photograph of the area is shown in Plaintiffs
Trial Exhibit 08 (C.088). A copy of Plaintiffs Trial
Exhibit 08 is attached to Appellant’s Brief filed on
December 12, 2019, as Exhibit “A”. The Hawes Line
is shown on the Hawes Plat to run approximately
one-sixth (0.16) of a degree north of due east. (C.087)
This bearing is not materially different from due
east.
FACT 10. In its Order of August 9, 2018, the
Trial Court “reaffirms its statement in the order of
June 21, 2018, that Surveyor Croft upon locating the
existing stone determined it to be the half-mile point
of the Section line, and the Northwest corner of
defendants' property.” (C.053)
FACT 11. Surveyor Croft testified that he set
an iron pin at the stone (R.40), and he understood
that the stone was half way between the railroad
The
spike and the next section corner (R.42).
location of this stone, shown as point-C on Exhibit
“A” attached to Appellant’s Brief filed on December
12, 2019, is 2,593.2 feet east of the railroad spike
marking the northwest corner of Section 26, which is
46.8 feet less than the half-mile Croft had
“determined”.
FACT 12. Hawes’ description of the Hawes
Line matches the description of the Section Line in
the U.S. Government survey of 1839-40, but the line
adjudicated by Judge Cole in his order of June 21,
2018, is substantially different. Judge Cole’s line is
94 feet shorter than the U.S. Government survey
Section Line, and it runs easterly at an

A59
extraordinary bearing of 1.40 degrees north of the
due east bearing recorded during the U.S.
Government survey of 1839-40. See Exhibit “B” and
Exhibit “C” attached to Appellant’s Brief filed on
December 12, 2019.
FACT 13. There are substantial distances
between points on the Hawes Line and associated
points on the Kimberleys’ barricade and markers: (a)
the eastern end of the Kimberleys’ line of new
boundary markers (point-A on Exhibit “A” attached
to Appellant’s Brief filed on December 12, 2019) is
60.3 feet north of the Hawes Line (the dashed line on
said Exhibit “A”);
(b) the southern end of the
Kimberleys’ barricade on the Road (point-B on said
Exhibit “A”) is 13.3 feet north of the Hawes Line; and
(c) the western end of the Kimberleys’ line of new
boundary markers (point-C on said Exhibit “A”, the
northwest corner of the land claimed by the
Kimberleys) is 46.8 feet west of the mid-point of the
Hawes Line and 56.1 feet north of the Hawes Line.
(R.070-074)
FACT 14. The Trial Court stated the following
in its Order of August 9, 2018.
“An adjoining
landowner, Leon Crane, testified that the corner
identified by Croft’s survey had been recognized for
over forty years as the Northwest corner of the
property now owned by defendants. The Hawes line,
however, runs through an existing shed on Crane’s
property.” (C.053) There is no other reference to
Leon Crane in any Trial Court Order related to its
decision regarding the location of the Section Line.
FACT 15. “Where the location of section lines,
or their subsidiaries, is in dispute, a witness who is
not an expert surveyor may testify to existing and
visible lines and monuments which have been
adopted or assented to by adjacent owners, but he

A60
cannot, upon such knowledge alone, give his opinion
as to what is the true line.” Pounders v. Nix, 130 So.
537, 539 (Ala. 1930), which was cited by Williams v.
Laubenthal Land & Timber, 941 So.2d 301, 305
(Ala.Civ.App.2006), which was cited by the Alabama
Court of Civil Appeals in its Decision of September
11, 2020, in this case 2190017.
FACT 16. The Trial Court, in its Order of
June 21, 2018, erroneously found that Surveyor Croft
“in performing the 2009 survey for defendants used
[the northwest corner of Section 26] and the original
government survey field notes and ran a line east to
a point where he located an existing stone which he
determined to be the half-mile point of the Section
Line and the northwest corner of defendants’
property, and he put a metal pin there.” (C.036-037)
In its subsequent Order of August 9, 2018, the Trial
Court admitted that it was “in error” in making the
above-stated finding, and it ordered this crucial but
erroneous finding to be struck from its Order of June
21, 2018. (C.053) The Trial Court made no other
finding that Croft made any measurements related
to the U.S. Government survey of the Section Line.
Its decision was, therefore, unjustified.
FACT 17. Alabama law requires that all
disputes regarding the location of a section line be
governed by the United States Survey and that a
section line must be located by reference to its
original U.S. Government survey.
See Mims v.
Alabama Power Company et ah, 77 So.2d 648, 651
(Ala. 1955).
6. CONFLICTS STATED WITH PARTICULARITY.
The affirmation by the Court of Civil Appeals of the
trial court’s orders is in conflict with Supreme Court
precedent because none of the findings on which the

A61
trial court’s determination of the location of the north
line of Section 26 (the “Section Line”) was based
relate to the original 1839-40 survey by the U.S.
Government. See Fact 16, above. In essence, the
trial court moved a section line, and Alabama law
requires that a section line must be located by
reference to the original U.S. Government survey.
“In this state all disputes as to lines of sections and
subdivisions thereof are to be governed by the United
States Survey and located by reference to the original
government survey. Taylor v. Fornby, 116 Ala. 621,
22 So. 910; Billingsley v. Bates, 30 Ala. 376. ... "And
while the boundary line between adjacent
landowners may be fixed and changed by agreement
or by adverse possession, they cannot relocate a
section line as surveyed by the government
surveyors." McNeil v. Hadden, supra [261 Ala. 693,
76 So.2d 162].” Mims v. Alabama, Power Com,party et
al, 77 So.2d 648, 651 (Ala. 1955).
The affirmation by the Court of Civil Appeals of the
trial court’s orders is also in conflict with Supreme
Court precedent because the trial court did not follow
Alabama law by considering the measurements made
by surveyor Dwight Hawes based on the distances
recorded during the original U.S. Government survey
of 1839-40. These measurements are evidence of the
No contradicting
location of the Section Line,
evidence of the location of the Section Line, based on
the original government survey, was cited by the
trial court in its orders. Alabama law requires that
the best evidence available must be considered in
determining the location of a section line. See Lewen
v. Smith, 7 Port. 428, 433 (Ala. 1838).

A62
The affirmation by the Court of Civil Appeals of the
trial court’s orders moving the Section Line conflicts
with a relatively recent decision by the Court of Civil
Appeals itself. In North Clark Water Authority v.
Dockery, 5 So.3d 634, 636 (Ala.Civ.App.2008), Mim,s,
supra, is cited: “ “In this state all disputes as to lines
of sections and subdivisions thereof are to be
governed by the United States Survey and located by
reference to the original government survey.” Mims
v. Alabama Power Co., 262 Ala. 121, 124, 77 So.2d
648, 651 (1955). Although a boundary line between
adjacent landowners may be fixed or changed by
agreement or by adverse possession, neither process
can ‘“relocate a section line as surveyed by the
government surveyors.
The Court of Civil Appeals’ affirmation of the trial
court’s relocation of the section line conflicts with
aspects of the Section Line originally described in the
field notes and on the plat of the U.S. Government
survey of 1839-40. See Fact 12, above. The trial
court’s orders effectively reduced the length of the
Section Line by 94 feet and changed its bearing by
1.40 degrees from the length and bearing recorded in
the original government survey. The trial court,
thereby, moved the northeast corner of Section 26 to
the west by 94 feet and to the north by 112 feet,
changing long-established property boundary lines in
the four sections which share this section corner. “43
U.S.C. § 752 provides that the corners of a section
and any other landmarks within the section
established by the original government survey shall
be adhered to in the future.” First Beat v. ECC, 962
So.2d 266 (Ala.Civ .App. 2007). “The boundary lines,
actually run and marked in the surveys returned by
the Secretary of the Interior or such agency as he

A63
may designate, shall be established as the proper
boundary lines of the sections, or subdivisions, for
which they were intended, and the length of such
lines as returned, shall be held and considered as the
true length thereof.” 43 U.S. Code § 752.
The affirmation by the Court of Civil Appeals of the
trial court’s orders, on the premise that the
testimony of Leon Crane might be relevant to the
location of the Section Line, is in conflict with
Omission of this
Supreme Court precedent,
testimony from the record on appeal is harmless.
Petitioner has requested and should be allowed to
supplement the record with the omitted testimony.
The trial court’s orders state that Crane’s testimony,
which is not in the record on appeal, relates to a
property corner, but the trial court’s orders do not
suggest that Crane’s testimony relates to the U.S.
Government survey of the Section Line or, otherwise,
to the location of the Section Line. The trial court’s
orders describe Crane as a “neighboring landowner”,
and do not suggest that he is an expert surveyor like
Hawes or Croft. See Fact 14, above. “Where the
location of section lines, or their subsidiaries, is in
dispute, a witness who is not an expert surveyor may
testify to existing and visible lines and monuments
which have been adopted or assented to by adjacent
owners, but he cannot, upon such knowledge alone,
give his opinion as to what is the true line.”
Pounders v. Nix, 130 So. 537, 539 (Ala. 1930).
WHEREFORE, Petitioner respectfully requests that,
after a preliminary examination, the writ of
certiorari be issued, and that this Court proceed
under its rules to review the matters complained of,
and that the judgment of the Court of Civil Appeals

A64
be reversed, and that the location of the Section Line
be ordered to be in accordance with the original U.S.
Government Survey of 1839-40, and that such other
relief as Petitioner may be entitled be ordered.

REL: September 11, 2020
STATE OF ALABAMA - JUDICIAL DEPARTMENT
THE COURT OF CIVIL APPEALS
SPECIAL TERM, 2020
2190017
Thomas C. Donald v. James P. Kimberley
and Carol J. Kimberley.
Appeal from DeKalb Circuit Court (CV-17-900198).
PER CURIUM.
AFFIRMED. NO OPINION.
See Rule 53(a)(1) and (a)(2)(F), Ala. R. App. P.;
Williams v. Clark. 263 Ala. 228, 228, 82 So. 2d 295,
295-296 (1955); Williams v. Laubenthal Land &
Timber Co.. 941 So. 2d 301, 303-304 (Ala. Civ. App.
2006); and Ezell v. Ezell, 440 So. 2d 560, 562 (Ala.
Civ. App. 1983).
All the judges concur.

A65
The Court of Civil Appeals
[Seal of the State of Alabama]
REBECCA C. OATES
CLERK

MEG WILLIAMS FIEDLER
ASSISTANT CLERK

300 DEXTER AVENUE
MONTGOMERY, ALABAMA 36104-3741
TELEPHONE 304-229-0733
January 8, 2021
2190017
Thomas C. Donald v. James P. Kimberley and
Carol J. Kimberley (Appeal from DeKalb
Circuit Court CV-17-900198)
You are hereby notified that the following
action was taken in the above cause by the
Court of Civil Appeals:
Application for Rehearing Overruled. No
opinion on rehearing.
Thompson, P. J., and Moore, Donaldson,
Edwards, and Hanson, JJ., concur.
s/ Rebecca C. Oates
Rebecca C. Oates
Clerk, Court of Civil Appeals

A

